U.S. Department of Justice
Office of the Solicitor General

The Solicitor General

Washington, D.C. 20530

February 5, 2021
Honorable Scott S. Harris
Clerk
Supreme Court of the United States
Washington, D.C. 20543
Pedro M. Bess v. United States,
No. 20-489
Dear Mr. Harris:
The petition for a writ of certiorari in the above-captioned case was filed on October 9,
2020, and placed on the Court’s docket on October 15, 2020. The government’s response is
currently due, on two extensions, on February 16, 2021.
We respectfully request, under Rule 30.4 of the Rules of this Court, a further extension to
and including March 18, 2021, within which to file the government’s response. This extension is
necessary because the attorneys with principal responsibility for final preparation of the
government’s response have been heavily engaged with the press of other matters before the Court.
Counsel for petitioner does not object to this further extension of time.
Sincerely,

Elizabeth B. Prelogar
Acting Solicitor General

cc:

See Attached Service List

20-0489
BESS, PEDRO M.
USA

CLIFTON EARL MORGAN III
U.S. NAVY JAG CORPS
1254 CHARLES MORRIS ST, SE
BLDG.58
SUITE 100
WASHINGTON, DC 20374
202-685-7052
CLIFTON.MORGAN@NAVY.MIL

